<html>
<title> - IMPROVING AMERICA'S TRANSPORTATION INFRASTRUCTURE: THE ROAD FORWARD</title>
<body><pre>[Senate Hearing 115-53]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 115-53
 
  IMPROVING AMERICA'S TRANSPORTATION INFRASTRUCTURE: THE ROAD FORWARD

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          
  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                           _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-349 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001         
  
  
  
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 17, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                                WITNESS

Chao, Hon. Elaine, Secretary, U.S. Department of Transportation..     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Carper...........................................    16
        Senator Duckworth........................................    21
        Senator Harris...........................................    22


  IMPROVING AMERICA'S TRANSPORTATION INFRASTRUCTURE: THE ROAD FORWARD

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:44 a.m., in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Carper, Ernst, Rounds, Shelby, 
Fischer, Capito, Boozman, Sullivan, Inhofe, Booker, Cardin, 
Whitehouse, Merkley, Duckworth, Gillibrand, Harris, and Markey.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I will call the hearing to order.
    Today we are welcoming the Secretary of Transportation, 
Hon. Elaine Chao, to testify before the Senate Committee on 
Environment and Public Works on our nation's infrastructure 
needs.
    Madam Secretary, welcome to the Committee.
    The Senate Environment and Public Works Committee has 
always taken the lead on infrastructure issues in the Senate. 
When unveiled, other committees' infrastructure proposals will 
increase funding and provide streamlining requirements for the 
construction of pipelines, rail, housing, and large urban 
projects of various kinds that may be privately financed 
through public-private partnerships, to name a few of the 
issues.
    However, our nation's highways, roads, and bridges should 
be a central component of any final infrastructure bill. It is 
up to our Committee in a bipartisan way, working with the 
Administration, to invest real dollars in existing highway 
formulas and non-formula programs in a fiscally responsible 
way.
    In a recent hearing in this Committee, Wyoming Department 
of Transportation Director Bill Panos stated in written 
testimony that ``Using the current predominantly formula-based 
FAST Act approach to distribution would ensure both rural and 
urban States participate in the initiative. It would also help 
push the benefits of any new infrastructure initiative out to 
the public promptly.'' I agree.
    Using the formula-based approach will expedite the delivery 
of additional infrastructure spending, which will ensure 
highway projects for the public will be built faster, as 
opposed to adopting a new funding structure that's less 
understood by the stakeholders. Public-private partnerships can 
be effective in urban areas but don't work for rural States 
like Wyoming and other small and rural States represented on 
this Committee.
    In February, before this Committee, Cindy Bobbitt, a Grant 
County, Oklahoma, County Commissioner, testified on behalf of 
the National Association of Counties. She stated in her written 
testimony the difficulties in rural areas' being able to raise 
revenue to pay for infrastructure and the ever increasing costs 
of construction when she stated, ``In addition to facing 
growing demands for transportation investment and numerous 
limitations on local revenue sources, rural counties are 
encountering rising costs for transportation and infrastructure 
projects.'' She goes on: ``Based on the American Road and 
Transportation Builders Association's Highway Construction 
Price Index,'' she states, ``the cost of construction, 
materials, and labor for highway and bridge projects increased 
44 percent between 2000 and 2013, outpacing the 35 percent 
increases in general inflation.''
    In part to help address cost concerns expressed by both 
rural and urban communities, this Committee recently held a 
hearing calling for better, faster, cheaper--and as Senator 
Carper added, smarter--highway and road projects. Working with 
this Administration and with you, Madam Secretary, and with the 
members of this Committee, we do need to find ways to get 
projects started faster, build better roads, and reduce costs. 
As I stated at that hearing, simplifying these processes will 
allow for construction companies to help start hiring and for 
workers to begin building faster.
    When we find ways to streamline review processes, we can 
initiate projects expeditiously. Less time and money in staff 
effort would need to be dedicated to regulatory compliance. 
When we find opportunities to streamline regulation, it enables 
State departments of transportation and other regulated 
entities to focus more closely on delivering transportation 
projects and programs and do a better job of them.
    This Administration also has a role to play in correcting 
recent proposals that unnecessarily subjected rural State 
departments of transportation to the same rules as more densely 
populated States. The idea that combating congestion should 
require Wyoming or Alaska or South Dakota to report on traffic 
volumes on roads that are infrequently traveled is a waste of 
valuable time and taxpayer resources. Most importantly, meeting 
these requirements meant for more urban areas takes time and 
money. It impacts a rural State's ability to complete projects.
    I also have concerns about longstanding barriers that exist 
at the Federal level, at the Department of Transportation, and 
at the State level that might interfere with application of 
technologies that can accelerate project delivery at lower 
cost.
    A June 2016 report by McKinsey and Company titled Imagining 
Construction's Digital Future states that large capital 
projects typically take 20 percent longer to finish and are up 
to 80 percent over budget. One of the reasons stated is that 
the construction industry is one of the industries that is the 
least digitized.
    So modifying policies to allow for technological 
innovations as identified in that report, such as designing 
with new materials, digital mapping, intelligence assessment 
management, decisionmaking, paperless projects, and other 
technologies, they can save valuable taxpayer money and speed 
project construction. Technological innovations such as these 
are just common sense and must be allowed to be used.
    I believe we can work together in a bipartisan way to help 
our communities address their infrastructure needs. I look 
forward to working with the Secretary and my colleagues to help 
accomplish these things.
    With that, I would invite the Ranking Member, Senator 
Carper, for his opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Madam Secretary, delighted to see you here. Delighted that 
you are in this position. I think all of us supported your 
nomination and look forward very much to working with you. 
Thank you for visiting with me a couple of weeks ago. One of 
the things, my colleagues, that the Secretary and I talked 
about was, what is the role of government? What is the role of 
government? Abraham Lincoln used to say the role of government 
is to do for the people what they cannot do for themselves.
    I think the primary role of government, Madam Secretary, 
and I have said this to my colleagues any number of times, is 
to create a nurturing environment for job creation and job 
preservation. In our business, people who have jobs are able to 
support their families and themselves. For us, the rest is 
actually pretty easy. The nurturing environment for job 
creation and job preservation includes a lot of things. It 
includes work force, includes access to capital, includes 
energy--dependable energy--it includes public safety, common 
sense regulations, tax policies that foster economic growth 
that are deemed to be fair, that don't explode our budget 
deficits and so forth.
    But another big factor, and this is the reason we are 
having our hearing today, another big factor in that nurturing 
environment for job creation and job preservation is the 
ability for people to go where they need to go when they need 
to go. And for us to be able to ship and move goods throughout 
this country in a cost effective way.
    I am excited that we are going to have a chance to take 
this up and discuss this with you today. We look forward to an 
ongoing conversation with you and your colleagues. You have 
taken this leadership role at a critical time for our country, 
and I think at an exciting time. What did Einstein used to say, 
in adversity lies opportunity. Plenty of adversity, also plenty 
of opportunity. Our job is to seize the day, carpe diem, or as 
we say in Delaware ``Carper Diem.''
    [Laughter.]
    Senator Carper. But we face this crisis in large part 
because we haven't raised the gas and diesel tax in some 24 
years, or not adjusted them for inflation. Revenues have stayed 
flat while construction costs to build roads, highways, bridges 
continue to increase. We managed to pay for the FAST Act in 
2015 by literally pilfering some $70 billion from other 
accounts, according to Congressional Budget Office estimates. 
We will need to find about $115 billion in 2020 in order to 
continue providing the same level of funding plus inflation for 
the next 5-year bill.
    In fact, when we take up the next transportation bill, I am 
told we need to do a lot more than just maintain our current 
levels of spending. Plain and simple, the amount that we are 
spending today is woefully short of what we ought to be 
spending if we want to have the roads, highways, bridges that 
our country and its people need.
    We face an $836 billion backlog of grid, highway, and 
bridge projects. We have a $90 billion backlog for transit. Put 
them together it's almost like $1 trillion. The under-
investment shows in the condition of our assets. The 2017 
report card from the Society of Civil Engineers gave our roads 
in this nation a D, as in dog--not delightful--dog. Our transit 
systems received a D^, a D^. How low can you go? Not much lower 
than that.
    But spending on transportation at all levels of government 
needs to increase, and the Federal Government should, I 
believe, lead the way, at the same time making sure we're 
spending that money in a cost effective way. We will come back 
to that later on.
    But that is why I was heartened to hear President Trump's 
campaign pledge to spend $1 trillion on infrastructure. I hope 
that when the Administration finally releases its proposal that 
it will include plans for direct spending to address the 
investment backlog.
    When we invest in transportation we also have to choose 
investments wisely in order to make the best use of scarce 
Federal dollars. Some of the changes made by this Committee in 
the last two authorization bills, often referred to as 
streamlining, will help improve transportation planning and 
project delivery. Unfortunately, a number of these changes have 
not yet been implemented, as you know, by the Department of 
Transportation. And the work has been put on hold for the last 
couple of months. I sincerely hope that you and your team will 
focus on ensuring fast and effective implementation of the 
remaining MAP-21 and FAST Act provisions as they relate to 
streamlining.
    The transportation world today also faces a grave safety 
challenge. Last year more than 40,000 people lost their lives 
on our roads. That is more than all the people we have who live 
in Dover, Delaware. Over the last 2 years this number has 
increased more quickly than at any time in the last half-
century.
    As you know, safety is a central part of the mission of the 
Department of Transportation. We hope that you will make it 
part of your personal mission, as its Secretary.
    In short, there is no shortage of challenges. We know that. 
But as I said earlier, where this is adversity, there is also 
opportunity. Our job--a big part of our job--is to find that 
opportunity. New technology and integration in vehicles has the 
potential to dramatically improve safety and increase the 
efficiency of our roadways, and advances in construction 
materials will enable us to build infrastructure that is 
stronger, lighter, that is less expensive and more sustainable.
    I am also hopeful that innovation can help point the way 
toward new sources of revenue, a means of collecting road user 
charges in a secure and cost effective way. If you take RUC--
road user charges, that is what they have been doing in Oregon 
for 10 years--combine that with highway speed EZ Pass, and I 
call it RUC and roll. RUC and roll, I think that might be part 
of the future for dependable revenue sources as we try to get 
our roads, highways, and bridges back in shape again.
    In closing, let me reiterate that we look forward to 
working with you; we look forward to your testimony and look 
forward to working with you. We look forward to your testimony, 
and look forward to working with a bunch of stakeholders all 
across the country who are counting on us to do our jobs.
    So welcome aboard, and good luck.
    Senator Barrasso. Thank you very much, Senator Carper.
    Our witness today is Hon. Elaine Chao, Secretary, U.S. 
Department of Transportation.
    Madam Secretary, your full written testimony will be made 
part of the official record. We look forward to hearing your 
testimony. Please proceed.

           STATEMENT OF HON. ELAINE CHAO, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Chao. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee. Thank you for the 
opportunity to testify before this Committee.
    Although I have talked with many of you individually, this 
is the first time that I am testifying as the Secretary of 
Transportation. So I am pleased to share some thoughts on our 
country's infrastructure challenges and to hear your concerns 
as well.
    As I mentioned during my confirmation, my three priorities 
as Secretary of Transportation are safety, infrastructure, and 
the future. Our country's vast network of highways and bridges 
is a prime example of infrastructure that needs attention in 
all three categories.
    After several years of going in the right direction, recent 
statistics have shown that highway fatalities, as mentioned, 
are increasing. Measured in lost time and fuel, growing 
congestion is costing our economy and our citizens as much as 
$160 billion annually. And some of our most basic 
infrastructure will require modifications to accommodate the 
smart technology of the future.
    These challenges, I know, are well known to you, which is 
why passage of the FAST Act in 2015 was such an important 
milestone. It provided the Department with new tools and more 
flexibility to speed up the repair, the rebuilding, and the 
refurbishment of critical infrastructure.
    Over the past 2 years, the Department has begun to 
implement the provisions of the FAST Act, but much more can be 
done, especially in streamlining project permitting, approval, 
and delivery. That is why we have initiated a complete review 
of how the FAST Act is actually being implemented. We want to 
ensure that the tools and flexibilities provided by the Act are 
not encumbered by unnecessary and burdensome administrative 
requirements.
    Although this Administration is only about 4 months old, 
let me share with you some of the infrastructure funding that 
has already been delivered. It includes $166.5 million in TIFIA 
loans and nearly $800 million in emergency grants to States and 
municipalities to repair highway infrastructure damaged by 
disasters. One notable award was $10 million in emergency 
relief provided to Georgia after the collapse of a bridge over 
Atlanta's I-85 highway, a major traffic artery that is critical 
to the local economy.
    In addition, the Department is set to award a number of 
FastLane grants very shortly, and will be issuing a 
solicitation for applications under the FastLane program. We 
are also taking a close look at the criteria used in awarding 
the Department's discretionary loans and grants. We want to 
ensure that we are maximizing the opportunities to revitalize 
infrastructure provided by the FAST Act and that the needs of 
all parts of the country are addressed.
    As mentioned, the President has made infrastructure one of 
his top priorities. The Administration will share its vision of 
what the infrastructure plan will look like soon, which will 
kick off our collaboration with the Congress. As OMB Director 
Mulvaney recently announced, the proposal will likely include 
$200 billion in direct Federal funds, which will be used to 
leverage a trillion dollars in infrastructure investment over 
the next 10 years. The goal is to use Federal funds as an 
incentive to get projects underway and build more quickly, with 
greater participation, by State, local, and private sector 
partners.
    A key goal of this initiative will be incentivizing private 
sector investment in infrastructure. We understand that not 
every infrastructure project, however, is a candidate for 
private investment. The Administration recognizes the 
difference between rural and urban infrastructure needs. We 
anticipate that the President's proposal will reflect this 
understanding.
    Transportation infrastructure is essential to the 46 
million Americans who live and work in rural areas, and to 
moving agriculture and other products produced in these areas 
to markets and ports. So I look forward to working with you to 
find solutions to our country's infrastructure challenges, not 
only to support economic development and job growth, but also 
to keep America connected. From the Gulf Coast to the Great 
Lakes, from the east coast to the west coast, transportation 
helps to knit our country together. So we have got to ensure 
that we take good care of these critical resources.
    And now, I will be happy to take your questions.
    [The prepared statement of Ms. Chao follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Barrasso. Thank you very much, Madam Secretary. I 
appreciate your testimony. As we know, the Administration has 
committed to a comprehensive infrastructure bill. As you 
mentioned, and as did I, the highways, roads, and bridges need 
to be a central component of any infrastructure bill.
    Could you talk a little bit more about the Administration's 
view on ensuring that a major portion of the funding in any 
infrastructure package is used to do things to maintain and 
upgrade the nation's highways, roads, bridges, and the 
fundamentals that we are focused on here?
    Ms. Chao. As mentioned, the President's top priority--one 
of the President's top priorities is obviously restoring, 
rebuilding, refurbishing, repairing the infrastructure of our 
country. This is a huge task, which involves the entire 
executive branch.
    There has been an interagency work force that has been 
established. There are 16 different agencies and departments 
that are part of this task force to ensure that we are looking 
at the infrastructure proposal from a holistic point of view 
and including also all the stakeholders involved.
    So this infrastructure task force includes, for example, 
the Treasury Department, Commerce, OMB, Transportation, of 
course, Agriculture, Interior, Department of Defense, 
Department of Labor, FCC, Veterans Affairs. So the proposal 
will include not only transportation infrastructure, which 
includes, of course, airports, roads, rail, highways, ports, 
inland waterways, but also energy, water, possibly broadband, 
veterans' hospitals. So it would be a very comprehensive 
approach.
    To that end, there is also a great deal of attention given 
to two parts of this effort: the front end part of permitting 
and then the latter part about pay force. So this has been a 
very significant undertaking by the whole, entire executive 
branch.
    Senator Barrasso. In terms of using resources in a better 
way and a smarter way, one of the things I talked about in my 
opening statement were some of these one size fits all 
approaches. When I see some of the proposals on measuring and 
combating traffic congestion, in New York, New Jersey, 
California, they may make perfect sense. But in Wyoming, they 
don't, in terms of the amount of money we would have to spend 
to do the kinds of things, to monitor things. The road between 
Casper, Wyoming, where I live, and Cody, Wyoming, 214 miles, 
there is one traffic light, kind of halfway in between, in 
Thermopolis. Pretty much, people don't ever worry about the 
amount of traffic. The reason they put the traffic light there 
was not that felt they needed it many years ago, but they were 
just concerned that when students went there to the University 
of Wyoming, Laramie, they wouldn't know how to work a traffic 
light when they were driving until they got to the university. 
So they put a traffic light up.
    So are there ways we can look together to look for some 
common sense regulations in terms of rural America?
    Ms. Chao. Absolutely. You mentioned your concern earlier in 
your testimony; we take note of that. As you know, I come from 
a rural State myself. So as we go forward, the Administration 
wants to be very, very emphatic that it will understand the 
concerns of rural America.
    Senator Barrasso. Could you please provide us with a bit of 
an update of the Administration's timeline for the 
infrastructure package?
    Ms. Chao. The Administration's timeline was in part based 
on the congressional timeline. And it was anticipated that 
third quarter of this year would probably be a time that both 
House and Senate would be able to pick up this proposal.
    In the interim, obviously the President is very impatient, 
and he has asked the principles be released around the latter 
part of May. So the principles for the infrastructure project 
should be coming out shortly.
    Senator Barrasso. I want to talk also about the way that 
funds are distributed in current formula programs. It seems to 
be working, people agree. Is that your thought as well, that 
that would be the right way to go, rather than creating a whole 
new way to distribute the funds?
    Ms. Chao. We have certainly talked a great deal about 
formula funding. That certainly has been one way in which the 
various demands and requirements of the Members of Congress are 
addressed. So we are still talking about that as well.
    Senator Barrasso. And given your existing authorities, 
could you talk a little bit about your vision to streamline the 
regulatory process to accelerate the delivery of some of these 
projects?
    Ms. Chao. All of us care about the environment, and we care 
about all construction projects, and that they should be 
conducted in a way that is responsible.
    But as we examine the permitting part of construction 
projects, we find that sometimes there are--many times, there 
are duplicative and redundant requirements which impede and 
slow down the approvals for a construction project. So we are 
looking at those redundancies, and seeing whether there are 
some ways, sometimes, where it would be appropriate to do 
things concurrently as well, and not so much sequentially. So 
those are a couple of examples of the things we are looking at.
    Senator Barrasso. Thank you, Madam Secretary.
    Senator Carper.
    Senator Carper. Thanks so much, Mr. Chairman.
    When you were good enough to visit with me, I mentioned one 
of my core principles, and that is that things that are worth 
having are worth paying for. When I was Governor of Delaware, I 
took the lead, we did huge investments from 1993 to 2001 in our 
transportation infrastructure. We also paid for them. And we 
did it through an increase in user fees and a variety of other 
ways. But we didn't just charge more stuff on the State's 
credit card.
    I mentioned to you a couple of different things. One is 
user fees. The baseload for transportation funding for roads, 
highways, and bridges has been user fees for as long as I can 
remember. I think 65 percent of the funding for Federal highway 
programs today comes from gas tax. It is about 18 cents a 
gallon. We have not raised it for like 23, 24 years. About 25 
percent of the moneys come from diesel tax. We have not raised 
that, again, for 23, 24 years.
    Some of us proposed, George Voinovich, who used to serve 
with us on this Committee, in Bowles-Simpson, as part of an 
overall program to reduce deficits and grow our economy, we 
proposed raising gas and diesel tax for 4 years and index it 
growing forward. That was made a part of Bowles-Simpson, not 
enacted here by the Congress.
    In States across the country where the States have gone 
ahead, 20 States have gone ahead and raised their user fees. 
Amazingly, the legislators who voted to do that got re-elected. 
Ninety percent of Democrats got re-elected, 95 percent of the 
Republicans. People said, you can't vote to do this stuff and 
get re-elected. Well, that's not really true. You can do the 
right thing and actually be rewarded by your voters.
    We do a lot of tolling in Delaware. If you have ever been 
up I-95, you probably know what I mean. We apologize for that. 
But when you combine tolling with the EZ Pass and similar kinds 
of programs, you make it kind of easy. People go through the 
toll highway speed and it charges up on their credit card.
    Three-P, you mentioned to me when we talked earlier today 
about harnessing, if you are the private sector, for these 
public-private partnerships. The idea of tying together new 
construction that does tolling, that works in some places. In 
densely populated areas along the coast, maybe it works better 
than in the middle part of our country.
    But the idea of tying in tolling on new construction and 
using that to harness and incentivize the private sector to be 
involved, I think is a good idea. Other people who are smarter 
than me think it is as well. The trucking industry, which is a 
big advocate of the user fee approach, doesn't like tolling on 
existing highways, but they're willing to support tolling on 
new highways.
    But the idea of those who say we are going to solve this 
problem on the funding side just by doing 3-P--public-private 
partnerships--I would just remind us all, in the last 20, 30 
years, there have been 30 public-private partnerships. Thirty. 
And some of them are pretty big. But that is out of tens of 
thousands of projects, 30.
    And as you know, in a lot of parts of our country, it 
doesn't work. But in some parts of our country, Texas, and 35 
States, they have never had a public-private partnership. 
Thirty-five States. Texas, I think they just basically voted to 
take it off the plate, off the table. So it is not a panacea, 
but it is part of what can be done.
    Oregon has its road user charge thing that they have been 
doing for 10 years. Ten thousand vehicles are covered. I think 
we have to move quickly toward VMT, vehicle miles traveled. And 
by combining road user charge, as they are doing out in Oregon, 
with EZ Pass, highway speed EZ pass, and as I call it, could 
RUC and roll.
    If we can develop vehicles, cars, trucks, and vans that can 
drive from the Atlantic Ocean to the Pacific Ocean without a 
driver, we ought to be able to come up with a way to do vehicle 
miles traveled in a way that is respective of privacy.
    Those are just some of the ideas. I am happy to go out on a 
limb and say, we need an all of the above approach. There is no 
silver bullet, a lot of silver BBs. Some of them that I just 
mentioned are bigger than others.
    Talk to us about funding these projects, please.
    Ms. Chao. Senator, you are exactly right.
    These projects, as valuable as they are, as important as 
they are to our country, yes, they have to be paid for. But the 
question is whether or who pays for it. So that is the 
difficult part.
    In the past, there has been government funding. And in this 
particular environment, 100 percent government funding is 
probably not realistic, given the tremendous amount of 
resources that we need to devote.
    Therefore, as you mentioned, as cars become more fuel 
efficient, the gas tax per vehicle mile has been decreasing. 
And the integrity of the Highway Trust Fund is very important, 
and distributions have now exceeded inflows.
    So the good news is, nothing is off the table. We are 
looking at all of these things. Public-private partnerships are 
one way in which financing of needed infrastructure projects 
can occur. We are also hoping to have, through that vehicle, 
through that channel, more innovative, creative ways of 
financing. But nothing is off the table.
    Senator Carper. Thank you.
    Colleagues, our President put on the table a week or two 
ago the idea of user fees, raising user fees, something Senator 
Inhofe and I have been big proponents of for a long time. I 
immediately put out a press release supporting what he was 
doing. Then it was taken off the table.
    We need presidential leadership. As Governor, I tried to 
lead on these things. When Jim was mayor, he tried to lead on 
issues like that. We have other recovering Governors here at 
the table, as you know. We need presidential leadership. If the 
President will lead on this, making some tough choices, and not 
pull them off the table, we can get something done.
    Thank you so much.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. And let me remind Senator Carper, I can 
remember when I first was involved, I was in the House at that 
time, it was back in 1987, my first year here. At that time, 
Madam Secretary, the biggest problem we had with the Highway 
Trust Fund was that we had too much surplus in it. Of course, 
those days are long gone.
    At that time, I had said we had better prepare now and put 
in an escalation clause, so you have it indexed in some ways. 
This is something that very likely is going to be looked at.
    At the end of the Obama administration, Madam Secretary, 
the United States Department of Transportation solicited 
applications for FastLane grants. I know there are two of those 
that are established in the FAST Act. And I know that we have a 
couple of them in my State of Oklahoma.
    People are always calling me up and asking me the question 
that I am about to ask you, and that is, do you have an update 
that you can provide us as to when we can expect some type of 
announcement concerning those grants?
    Ms. Chao. The Administration came in, as you well know, 
less than 3 months ago. So we are in the process of evaluating 
those. Some, I hope pretty soon that we will be releasing a 
tranche. Then we will be taking a look at the others. We are 
very much aware of the needs of rural America. So we are 
reviewing all this with an eye toward, in particular, the needs 
of rural America.
    Senator Inhofe. Thank you. I think the Administration has 
made it very clear, and you have made it very clear that we are 
looking at the streamlining that was put together in both the 
'21 bill and the FAST Act. That was a timeframe, during that 
timeframe I chaired the Committee, and Senator Boxer was the 
Ranking Member. We worked together on these streamlining 
things. There were a lot of time when she would put her foot 
down, but we always ended up realizing that you have to 
compromise when you are putting one of these things together.
    I say that because one of the concerns I have is that some 
of the previous streamlining that we have achieved might not 
have been implemented to the truest intent of Congress. For 
example, we provided a categorical exclusion for projects in 
the existing operation of right of way. However, the 
implementation of this provision still requires paperwork from 
our State DOTs and approval, Federal Highways, that a project 
can receive a categorical exclusion.
    Is the Department reviewing guidance issued by the previous 
Administration to ensure that our streamlining efforts are 
being implemented to their fullest? Everyone out there who is a 
contractor, is working and participating in what we are going 
to be doing, you and us in concert. They are interested in 
streamlining, because you can get so many more miles out of it. 
And that was an agreement from the Democrats and the 
Republicans.
    Ms. Chao. What you just mentioned is very important in 
terms of helping the permitting process along. That is a 
categorical exemption. This effort has been--has started. We 
are taking a renewed look at it and making sure that indeed, we 
are implementing it in the speed and in the way that the Act 
requires.
    Senator Inhofe. That is music to my ears and to the ears of 
a lot of other people who have already started participating. 
Even though projects right now are not ongoing from the FAST 
Act itself, they know what our intent was, and our intent was 
clearly to get as many miles out of that as possible.
    Yesterday I chaired the Transportation and Infrastructure 
Subcommittee, and we looked at innovative solutions for public 
sector funding and private sector financing of infrastructure 
projects. We had State and local witnesses talking about the 
different initiatives that they are taking to prioritize 
infrastructure, including working with the private sector.
    But there was an overall agreement that the Federal 
Government must remain the lead in our infrastructure 
investment. Is that the view of the Administration as well?
    Ms. Chao. We are certainly very concerned about this. We 
are taking the leadership on it.
    Senator Inhofe. Most of us out there are very, very excited 
about the prospects. I have had a lot of my good Democrat 
friends who have a different philosophy than I have on most 
other issues saying, this really is what we are supposed to be 
doing. I have often said, there is an old, worn out document 
nobody reads anymore; it is called the Constitution. We are 
supposed to be doing two things here: defending America, and 
they called them post roads back there, but they are talking 
about infrastructure. So we are all looking forward to working 
with you in a very effective way.
    Ms. Chao. Thank you.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    Thank you, Secretary Chao, for coming before us.
    I want to bring particular attention to my gratitude for 
the letter that Senator Schumer, Senator Menendez, Senator 
Gillibrand, and myself sent you regarding the Gateway Project 
and the real crisis we have. Your letter, which I have here, 
was just really gracious. You put forward an intended hope that 
either before the major infrastructure announcement by the 
Administration or after, you would be willing to come up and 
visit. That is actually really, really assuring.
    It was also nice to hear that you, yourself, travel on 
Amtrak through the Gateway area as well.
    Ms. Chao. I have been delayed as well.
    Senator Booker. Yes. Well, that is really the crisis we 
have right now. As you probably heard, we now have delays that 
are stranding literally hundreds of thousands of Americans. It 
has become, in one of Planet Earth's most economically 
productive regions, literally the busiest river crossing in all 
of North America. We now have a system of rail that connects 
between Boston and Washington, DC, that has hit a critical 
chokepoint.
    It is so bad now that it is costing our region millions and 
millions of dollars in productivity every week in what is 
happening now. And the outrage of people, I literally have 
people from the State of New Jersey talking about moving back 
into New York, just 12 miles away, because of the unreliability 
of service. People calling my office, writing my office about 
lost time with family, not able to take the children to school. 
It is really a crisis throughout the area. Probably the biggest 
calls that Senator Menendez and I get into our offices, one of 
the biggest reasons is just this failing infrastructure that we 
have right now.
    It is outrageous, and this is really what our President's 
remarks have said as well, that in the 1960s you could move 
along the same rail half an hour quicker between Boston and DC, 
because that is how much more efficient this rail line was back 
then.
    So with commuters facing delays that are unconscionable, 
with crews desperately trying to fix this without causing even 
more delays, we have what I consider--we are teetering on the 
edge of a traffic Armageddon in the northeast region. If we 
don't begin work on these new tunnels soon, what that is going 
to mean is that we are going to have to take one of these over 
100-year-old tunnels, and that is a tour I hope to take with 
you, where I actually went into the tunnels in a glass car, and 
was astonished. You could see the physical damage done by 
Hurricane Sandy still.
    If we have to pull one of those tunnels out of service, 
that will literally cause a traffic Armageddon in the region, 
in one of America's--I think it is like the jugular vein of all 
the arteries we have in America, the most economically 
productive region. That would cause a nightmare like we 
couldn't believe. That is the level of urgency that we have 
before us.
    So I guess the first sort of question I have is, given sort 
of what the failure of one of these tunnels would mean, I am 
sure, again, I hate to do this to you when you have only been 
in office about 3 months, but are you taking this, at least 
what the last Administration called the greatest transportation 
crisis in the country, are you looking at this and figuring out 
what a strategy to prevent the crippling, really, of that 
region, should one of those tunnels have to go down?
    Ms. Chao. Absolutely. Senator, as you may know, actually, I 
grew up in New York. So I know that area very, very well. The 
President is a New Yorker; he understands the issue there very 
well.
    We have kept a very close eye on this, and FTA's safety 
inspectors have been down at Gateway, in that whole tunnel 
area. We just recently sent someone there again to make sure 
that our oversight of safety responsibilities is totally 
focused on the tunnel there. That is not to say that it is 
unsafe.
    Let me also bring to your attention, I want to work with 
you on this, the governing structure. Because the governing 
structure is quite complicated, as you well know. The 
Department of Transportation has one seat in a quasi-
governmental, local-State-Federal governing structure, in which 
the Governors of both States, New York and New Jersey, are 
involved.
    So the governing structure is something that is one that 
dictates all the parties involved need to work on this. So I 
would like to work with you on that. Please be assured that 
Gateway is an absolute priority in terms of our focus. We 
understand what is happening there. I have been a passenger 
myself, as mentioned, I have been delayed. I know the New York 
area very well; the President is a New Yorker. So this is a 
priority, and I look forward to working with you on it.
    Senator Booker. I appreciate it. My time is expired. I look 
forward to talking with you about the governing structure. The 
two Federal positions are, as you said, the Department as well 
as Amtrak. Amtrak is such a critical agent as well; I hope we 
can have conversations about Amtrak funding.
    You know that the Amtrak rail between Boston and 
Washington, DC, more people travel on rail than they do on 
plane. That is another area where there is continuing 
degradation of services. So we have a lot to talk about. I am 
grateful for your focus. I know you are a New Yorker, I just 
want to remind you----
    Ms. Chao. A Kentuckian.
    Senator Booker. A Kentuckian. Excuse me.
    [Laughter.]
    Senator Booker. I know you have New York roots. I just want 
to remind you that most of the New York professional sports 
teams play in New Jersey. So thank you very much.
    Ms. Chao. Just as a last point, I have also met several 
times with the Amtrak board and also with the President on this 
particular issue.
    Senator Booker. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Secretary Chao, thank you for testifying today and 
discussing the importance of infrastructure to our economy. I 
also appreciate your highlighting some of the proposals the 
Department of Transportation is reviewing to include in this 
infrastructure package. I look forward to working with the 
Administration in order to enhance our mutual priorities for 
the benefit of all American families.
    As you know, our national infrastructure is in a critical 
condition. The most recent report card from the American 
Society of Civil Engineers rated the United States 
infrastructure as a D+. This is unacceptable.
    Members of Congress must work together on a common sense 
solution to keep our country moving. The FAST Act was an 
important first step to address our infrastructure needs. It 
was the first long-term highway bill in more than a decade. 
However, as you know, the work is not done.
    That is why I happen to have introduced a bill that is 
going to look at solving two of the major challenges facing our 
transportation system. The first is that near-term solvency of 
the Highway Trust Fund. The second is the lack of flexibility 
for States in starting and finishing major transportation 
infrastructure projects.
    As we know, any infrastructure package must recognize that 
States know their own transportation needs best, not the 
Federal Government. Programs like the National Freight Program 
work for all States without leaving any behind. The National 
Freight Policy has also robust bipartisan support. Expanding 
this freight program should be an idea that is on the table 
when we discuss infrastructure.
    I would stress that as we think about the infrastructure 
package, we should avoid falling into the trap of a stimulus 
style spending. Infrastructure is an investment in the future 
of this country. That is how we need to think about it; that is 
how we need to plan for it.
    Finally, any infrastructure package must address how 
unintended regulatory consequences can impact our freight 
network, whether it is a delay to a critical highway project or 
a new requirement that alters the supply chain, burdensome 
regulations can hinder progress.
    So I would ask you, Madam Secretary, will you commit to 
working closely with my colleagues and I on priorities like 
these as the Administration and Congress continue developing a 
national infrastructure policy?
    Ms. Chao. Yes, of course.
    Senator Fischer. Thank you. And as we have already 
discussed, States are currently facing real challenges 
regarding infrastructure project completion due to those 
excessive procedural costs and delays in the permitting 
process. Earlier you called that the front end part.
    In response to the permitting delays, the Nebraska 
Unicameral unanimously passed legislation to allow the Nebraska 
Department of Roads to pursue assumption of the NEPA permitting 
process. The Nebraska Department of Roads has sent a letter to 
the Federal Highway Administration to begin the implementation 
of this program. I understand it could take up to 18 months.
    So Madam Secretary, do you have any updates on that program 
that you could share with me at this time?
    Ms. Chao. I think Nebraska has done very well, and your 
leadership on this issue is very much appreciated. The Governor 
acted in March, your legislature acted very quickly thereafter, 
and in the State Department of Transportation. So it was the 
Governor, the State Department of Transportation. The State 
Department of Transportation issued the letter on May 7th.
    So we know this issue, we are tracking it. We understand it 
is a concern of yours, and we are going to pay attention.
    Senator Fischer. OK, thank you very much.
    Also, the FAST Act requires the Department of 
Transportation to develop a National Freight Strategic Plan to 
assess that national freight network and help to plan for the 
future growth in that movement of freight. States are required 
to develop their own freight plans, and that is happening 
within Nebraska, with our Department of Roads. They are 
devoting significant time and resources to ensuring that we do 
have a comprehensive plan in the State of Nebraska.
    Can you elaborate on the importance of ensuring that we do 
have a thorough strategy to address the growing movement of 
freight across our country?
    Ms. Chao. Freight is a very important part of our overall 
commerce. It helps to keep our economy vibrant and our work 
force prosperous. So we want to do everything we can to 
facilitate commerce so that it brings greater vitality and 
prosperity to our country.
    Of course there are other--sometimes concerns expressed by 
other groups. So we want to work with all these groups. But 
there is no understating the importance of freight to the 
economic vitality of our country and the part the 
transportation infrastructure plays into that.
    Senator Fischer. Thank you. On the Commerce Committee, 
Senator Booker is Ranking Member, and I chair the Surface 
Transportation and the Merchant Marine Safety and Security 
Subcommittee. We look at the connection between the different 
modes of transportation, whether it is the roads, ports, rail, 
trucking. So I look forward to working with you on these issues 
as we look at how we are going to make sure that intermodal 
connection is also put together.
    Thank you.
    Ms. Chao. Thank you.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    And welcome, Madam Secretary.
    One of the questions that keeps arising is when the 
Administration is going to present an infrastructure plan. The 
President talked about possibly accelerating it. There was 
another discussion of it moving further back in the year.
    Do you have a sense now of when we will have a detailed 
proposal from the Administration?
    Ms. Chao. Actually, the two timelines are actually in sync 
and coordinated. The President would like the principles to 
come out in May, and then the legislative package will come out 
sometime later in the year, probably the third quarter.
    Senator Merkley. One of the things the President--so 
principles in May and details third quarter. OK, thank you. One 
of the things the President had said in some interview was that 
he recognized that the public-private partnerships didn't work 
in a lot of situations, and sometimes were more expensive. 
Certainly, we have found in the west that often toll roads end 
up taking a lot more money out of people's pockets than does 
public financing.
    Are you looking at the details of really how to get the 
most bang for the buck in terms of dollars spent? And I don't 
mean just total dollars, but I mean the total investment by 
citizens. Because if you have to pay for a road three times 
over, over 30 years of tolling, to get a 15 percent or 20 
percent return for a middleman, that is much more expensive 
than if we just financed it directly.
    Are you taking a look at how to get the most cost effective 
projects done?
    Ms. Chao. One of the reasons why the proposal is taking 
some time as well is that we in the executive branch, in all of 
our departments and at the White House are engaged in 
consulting with Members of Congress, with other stakeholders 
outside our Government, to ensure that mistakes of the past are 
not repeated. There are some very smart people at the White 
House who are former investment bankers who understand a great 
deal about financing. They have been giving their own 
expertise, but also listening to other people as well.
    So on your point about getting the most bang for the 
dollar, that would certainly be a reasonable and a logical 
thing to do. We hope that we are doing that adequately, yes.
    Senator Merkley. I would really encourage that. Because 
sometimes when I listen to the conversation it sounds like how 
to minimize the public dollars, talking about leverage and so 
forth. But sometimes that involves tolling that takes a 
tremendous amount more of our working Americans' pockets than 
if we just finance something directly. The President's comments 
seemed to reflect that recently. I was heartened by that, but I 
wanted to make sure that that is really getting the attention 
it needs.
    Ms. Chao. We are very open minded, as I mentioned. It is a 
large, consultative process underway with Members of Congress 
as well. So it will be in collaboration with the Congress.
    Senator Merkley. As I go from community to community, and I 
hold a town hall in every county in Oregon every year, and 
beforehand I meet with the county and local officials. The most 
common commentary on infrastructure isn't actually roads and 
bridges. It is water, clean water supply and waste water 
treatment. That is because you have changing Federal standards, 
you have old infrastructure wearing out, and you have new 
demands, for either a growing commercial sector or a growing 
residential sector.
    Will water projects be a big piece of an infrastructure 
package?
    Ms. Chao. The short answer is yes.
    Senator Merkley. Great. I love to hear it.
    Are you familiar with the WIFIA program, Water 
Infrastructure Finance Innovation Act strategy? You mentioned 
TIFIA; it is basically the parallel on the water side.
    Ms. Chao. Yes.
    Senator Merkley. Might that be piece of how we tackle that?
    Ms. Chao. You have made an excellent suggestion. That is 
not within my lane. But that is why we have 16 different 
Cabinet secretaries and agency heads around the interagency 
task force, to address issues like where there are 
infrastructure funding programs in different departments, how 
do we work together. Water is certainly a major topic within 
the infrastructure proposal.
    Senator Merkley. Great. I want to turn to Buy America. The 
President has said we will have two simple rules on the massive 
rebuilding effort: Buy America and Hire American. Are you 
supportive of those principles?
    Ms. Chao. It is the President's agenda, yes.
    Senator Merkley. Thank you. I am pleased to hear that.
    I think for those of us who have seen the dumping of 
foreign steel in our market and the impact it has had on 
domestic production and the importance of steel in our national 
security, certainly there is a lot of support for making sure 
we keep that principle. We are cheering the President on on 
that topic.
    I wanted to turn to the issue of the CAFE standards and the 
conversation about loosening those. I see my time is up, so you 
are spared this question. So perhaps I will follow up on it 
later. My concern is, and I will just state it this way, is 
that if we don't stay on the cutting edge of innovation, it 
makes it much harder for our products to be sold around the 
world, and to keep the innovation here in America. The rest of 
the world is pushing hard forward on this issue of more 
efficient strategies for transportation, and I hope we will, 
too.
    Ms. Chao. Thank you.
    Senator Barrasso. Thank you, Senator Merkley.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Good morning, Secretary Chao.
    As a Kentuckian, I suspect that you recognize the need to 
balance both the urban and rural States' needs when it comes to 
infrastructure repair, development, and so forth.
    I am concerned by the President's proposed, as we call it, 
the skinny budget, which provided no funding for TIGER grants 
for fiscal year 2018. However, many States, including South 
Dakota, have benefited from TIGER grant programs. We have 
received funds for innovative transportation projects. Just an 
example would be, in 2016, the Rosebud Sioux Tribe, which is in 
a very rural area, received a $14 million TIGER grant for a 
highway project. It was an improvement project, and in 2015, we 
received a $6 million grant for a freight capacity expansion 
project.
    These projects are difficult to fund through other Federal 
funding sources. But they really are important to job creation, 
particularly in rural areas. They are also important for 
transportation safety and efficiency and the economic growth of 
rural States.
    I am just concerned, can you share with us a little bit 
about what you see as the future of the TIGER grant program and 
the benefits that the program has to infrastructure projects 
and what your thoughts are in general about the lack of funding 
for TIGER grants?
    Ms. Chao. I know how popular TIGER grants are with Members 
of Congress. This is the first budget done by a new 
Administration. And the OMB Director, Mick Mulvaney, had not 
been on board yet. So this particular issue about the TIGER 
grants is something that we are discussing. The thought was 
that going forward there would be a more holistic approach to 
infrastructure, and perhaps these TIGER grants would be recast 
in some way in the future. So we are still talking about it.
    Senator Rounds. I am glad to hear that. A lot of these 
TIGER grants, they are small in nature compared to a lot of the 
costs involved in some of the more urban areas where there is 
significantly greater cost for any project to be completed. In 
this particular case, these TIGER grants really are very well 
appreciated. They are highly competitive. So only the best 
projects are really funded with these TIGER grants themselves.
    But I am glad to hear that it is a work in progress. Rest 
assured we would love to provide additional input and advice as 
you come to making the decisions in this particular case. It is 
a very good series of projects, and we have seen some real 
benefits within our rural States.
    That is all that I have.
    Senator Carper. Would the Senator from South Dakota yield 
for just 10 seconds, please?
    Just to follow up on your point, it is a really good point. 
One of the advantages of TIGER grants, as you know, is it helps 
leverage other moneys. One of the principles of the 
Administration, if we want to leverage private sector moneys 
and those kinds of investment moneys from other sources, that 
is one of the beauties of TIGER grants.
    Senator Rounds. Absolutely. Not only does it impact some 
very rural areas that are able to obtain some Federal dollars 
in this process, but in all of these cases you are finding that 
there is a partnership provided. Because in a lot of cases, it 
is an economic development plan in an area where you can either 
get additional commodities to market or in some cases, you are 
improving highways that we simply didn't have the resources to 
improve in some very rural areas. Particularly for our Native 
America populations in rural areas, some of the poorest 
counties in the entire United States, this is one project that 
really did impact those areas and provided the resources to 
actually improve some very dangerous roads.
    With that, Mr. Chairman, I will yield back.
    Senator Barrasso. Thank you very much, Senator.
    Senator Duckworth.
    Senator Duckworth. I want to thank the Chair and Ranking 
Member for convening today's hearing. I definitely want to 
thank Secretary Chao for participating in this very important 
conversation.
    Thanks to the determined bipartisan leadership of this 
Committee, Congress passed the FAST Act in 2015. Several 
provisions of the law are still making their way through your 
agency. I look forward to working with Chairman Barrasso and 
Ranking Member Carper, Senators Inhofe, Cardin, and others to 
ensure that the law is fully implemented.
    More than anything else, States and municipalities count on 
multi-year authorization to provide communities with the 
certainty needed to plan effectively and implement critical 
infrastructure projects. Secretary Chao, do you agree that the 
FAST Act has been effective in providing local decisionmakers 
with funding certainty for planning purposes?
    Ms. Chao. Senator, I think if you are referring to what I 
think you are referring to, you and I have talked about the 
regional planning districts. Sometimes they work, and sometimes 
they don't work so well in others. Senator Durbin has also 
weighed in with you as well. So we are looking at the whole 
planning part of that, and we are actually making progress in 
changing it to the way that I think you will like.
    Senator Duckworth. Thank you. I was actually referring to 
the FAST Act and the FastLane grant programs, to know that you 
have the certainty of those dollars coming in, those grant 
dollars coming in allows local municipalities to really plan 
out into the future. It is a great tool for municipalities to 
help figure out what they are going to do next.
    Ms. Chao. Thank you.
    Senator Duckworth. Under the bipartisan framework of the 
FAST Act, the FastLane grant program was created to advance 
projects of regional and national significance. At every 
meeting I have had with the freight rail industry, I am asked 
about the 75th Street Corridor improvement project as a 
component project of the CREATE program, a unique public-
private partnership.
    All seven Class I railroads agree that the 75th Street 
project will improve regional freight shipping and benefit the 
entire freight network. Stakeholders are confident in the 
project's national significance. State and local funds combined 
with significant rail company dollars are waiting patiently for 
FastLane funding to advance this critical project.
    I just want to say that it takes 48 hours to get freight 
from California to Chicago, and then it takes an additional 30+ 
hours just to get from one side of Chicago to the other. That 
is what this project will address.
    Secretary Chao, can we expect US DOT to move expeditiously 
in finalizing FastLane grant applications and not waste 
valuable time and resources re-opening the application process?
    Ms. Chao. We have just been in office for a relatively 
short time. I understand what you are saying, but we need to 
understand what these FastLane applications and grants are. We 
are working very hard to try to get them out as quickly as we 
can. We will probably do a first tranche, and then for the 
remainder, we are probably still going to go out with some 
applications de novo, to see, as we assess, on what the 
criteria is for reporting on these FastLane grants.
    Senator Duckworth. The sooner you can get them through, the 
better. As I said, this is holding up the commerce of the 
entire nation, not just the Chicago area or Illinois.
    Another linchpin freight project that is ripe for Federal 
support through the FastLane program is the replacement of the 
127-year-old Merchant's Bridge. This project is critical to the 
St. Louis region and represents another critical step toward 
improving our national freight network.
    As you know, Illinois has received over $327 million in 
TIGER grant funding. So I was pleased to hear the discussion we 
just had in committee. TIGER-funded projects in Illinois create 
thousands of jobs while upgrading key components of the State's 
infrastructure. That is why I was troubled to learn that 
President Trump's budget blueprint does eliminate TIGER 
programs.
    The skinny budget also cuts investment in new transit 
projects, like the CTA's Red Line extension to 130th Street, 
ends Amtrak long haul service, and hamstrings essential air 
service. Illinoisans are bracing for another blow to job 
creation efforts when the President's full fiscal year 2018 
budget is released next week.
    Can we expect more cuts to transportation programs? Or will 
the budget more closely reflect the promise the President made 
to invest in infrastructure?
    Ms. Chao. No. 1, I don't know what is in the budget that 
will be coming back. It will not be released until May 23rd. 
No. 2, as I mentioned, we understand, I understand how popular 
these TIGER grants are, and we are hoping to work in some way 
with the infrastructure project to find a more holistic way in 
which to provide the needs for the States and communities.
    So the moneys that will be taken out hopefully will be put 
back in the infrastructure project. I will not know that until 
May 23rd when it is released.
    Senator Duckworth. We are quite anxious. People all across 
Illinois are; I have heard from them, and they would like to 
keep the dollars in the FastLane grant program.
    I yield back, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Duckworth.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Madam Secretary, for joining us today.
    Because of Iowa's location in the center of the country, 
our interstate routes handle a lot of cross-country freight. 
For a lot of this freight, Iowa is not the origination, and it 
is not the final destination. It simply just passes through 
Iowa. This pass through traffic takes a major toll on our 
roads, and of course, drives up the maintenance costs for Iowa 
DOT.
    Nationally, Iowa ranks 5th in the number of bridges and 
12th in the miles of roadway. Yet the State ranks 30th in 
population and 23rd in overall land area. Central States like 
Iowa, which are overwhelming rural, are responsible for 
supporting the infrastructure that moves cross-country freight. 
Do you think that this point is something that Congress should 
take into consideration when working on future transportation 
bills, and if so, in what ways?
    Ms. Chao. This is an issue that we have discussed in the 
inter-agency work force. We do not have any conclusions on that 
yet, but clearly, this is a very important issue. Internally, 
we are discussing the very same issues that you are bringing up 
here.
    Senator Ernst. Very good. I know a number of other Senators 
have mentioned, or course, the rural areas and how important it 
is that funding mechanisms are reflective of those situations 
on the ground. So thank you.
    I did see some news recently that you had attended the U.S. 
Chamber. At that event, you mentioned projects that can't 
access private sector funding, and that there will be a few 
special projects that will likely be identified and funded 
directly.
    You also mentioned that this category of projects would 
either have the potential to significantly increase GDP growth 
or to lift the American spirit. Can you explain further what 
types of projects might these be?
    Ms. Chao. We will not specify any list of projects or 
anything like that. My remarks wanted to confirm and to 
reassure that this Administration understands the needs of 
rural America. As we go forward, we need to find some way to 
address the needs of rural America in a way with other 
financing mechanisms that may not work, that may work for urban 
areas but not for rural areas. So that is also one of the 
topics that we are working within the taskforce on trying to 
address.
    Senator Ernst. Certainly. I do hope that you reach out to 
rural legislators, Members of Congress, and receive input from 
our offices as well. We would love to assist in any way that we 
can to help our rural areas.
    And then finally, as you mentioned in your testimony, 
nearly 73 percent of our country's public roads are located in 
rural settings with populations under 5,000 people. I live on a 
gravel road outside of Red Oak, Iowa. Red Oak is a lot like the 
rest of rural America. We have about 5,700 people that live in 
Red Oak.
    Our network of farm to market roads and bridges, they are 
an integral link for our food supply chain. I have heard from 
farmers all across the State, as I am out on my 99-county tour, 
about their declining state of repair. So we do have about 
4,900 bridges that are considered structurally deficient.
    What will you do as Secretary to ensure funding and 
attention are dedicated to these rural projects? Are there any 
specific guiding principles that you would operate under?
    Ms. Chao. That is why the President has made infrastructure 
repair, rebuild, and refurbishment such a priority.
    Let me also point out structurally deficient does not mean 
the bridge is unsafe, or the road is unsafe. What structurally 
deficient means is that there will be more frequent 
inspections. If a bridge or road is unsafe, it will be shut 
down immediately. So I do want to make that clarification. 
Thank you.
    Senator Ernst. Absolutely. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, and thank you, 
Madam Secretary, for being here.
    On Friday, Senator Schumer and I wrote to you to raise the 
issue of funding for maintenance backlogs that exist for 
Amtrak's northeast corridor. As you may be aware, there have 
been significant infrastructure issues at Penn Station in 
Newark over the past few months. Because commuter trains use 
Amtrak's rails, this has impacted not just Amtrak, but the Long 
Island Railroad and the New Jersey transit as well.
    Last month, there were two derailments, and just last week, 
there were service disruptions on Monday, Tuesday, and 
Wednesday, causing significant hardship for New Yorkers who 
rely on the Long Island Railroad to travel between Long Island 
and New York City. These disruptions have become unbearable for 
many of my constituents. It boils down to the fact that we have 
not done a good job in maintaining our infrastructure over the 
past several decades.
    What assistance can you and the Department of 
Transportation provide to Amtrak to help them to move forward 
quickly with the repair work at Penn Station and reduce further 
impacts to riders?
    Ms. Chao. We have actually met with Amtrak, with the board 
and also with the President on this issue. It is a very 
complicated real estate play, if I may, play being movements. 
Because Penn Station is located right below Madison Square 
Garden. There is Moynihan Station which is being contemplated. 
So it is a very complex real estate.
    Nevertheless, I understand your concern. I am concerned 
about it. I just had a discussion back and forth with Senator 
Booker about Gateway and the tunnel there, the condition 
thereof, and how that is also delaying Amtrak.
    So as we go forward, I look forward to working with you and 
Senator Booker on the New York as well as the New York-New 
Jersey issues.
    Senator Gillibrand. Do you think that the Administration's 
infrastructure plan will include additional funding for 
passenger rail and the Gateway project?
    Ms. Chao. There will not be a specific list of projects. 
The infrastructure proposal is being put together with a much 
greater view of principles. Given the decentralized nature of 
our transportation infrastructure overall, there will seeding 
of Federal dollars that hopefully will leverage other moneys 
from perhaps the private sector, State and local, to the $1 
trillion. State and local I take back, but to the $1 trillion.
    What we have found is where there is Federal Government 
funding that that often displaces State and local funds as 
well. So we believe that the infrastructure concerns and needs 
are so great that all entities need to collaborate.
    Senator Gillibrand. I agree. Concerning back to the trains 
issue, Congress has extended a deadline for railroads to 
implement the positive train control in the FAST Act. 
Implementing positive train control is essential to preventing 
future derailments and collisions due to operator error, which 
we have unfortunately experienced too many times in the 
northeast.
    What is the current status of the Department's efforts to 
work with the railroads to implement positive train control 
requirements, and will you ensure that congressionally enacted 
deadlines are enforced?
    Ms. Chao. Absolutely. We just got the omnibus passed, 
thanks to the Congress. We now have the money, and we will be 
beginning to give them out.
    Senator Gillibrand. OK. My last question is, we have 
another issue in New York about the transport of crude oil by 
rail. It is a growing concern to a lot of our communities in 
our State, particularly along the Hudson River and cities 
upstate. During your confirmation hearing, you were asked 
whether you would support ongoing work by the Department of 
Transportation and Energy on the volatility of crude oil. At 
that time, you could not comment until you had been confirmed 
and had an opportunity to be briefed.
    Have you had a chance to be briefed on this topic, and will 
you support continued work by the Department to address the 
safety risks of crude oil transport by rail in a meaningful way 
through regulation?
    Ms. Chao. No. 1, safety is always No. 1, it is my top 
priority. No. 2, I have been briefed on it, it is a complicated 
issue. We are not quite sure how to go forward with it yet, but 
definitely, since you have brought it up again, we will go 
back, not that we have not been paying attention, but that we 
will give it a renewed effort again.
    Senator Gillibrand. Thank you.
    And then just a comment from the last exchange with Senator 
Duckworth, and with Senator Ernst, I really appreciate this 
interest in rural America. We have huge issues in New York, as 
you know, a lot of rural areas. Not all projects are economic, 
so you do need Federal investment. But there are some 
impediments also in cities. They can't do P-3s, for example, in 
New York City. It is not allowed by New York State law.
    So sometimes you will need Federal funding as well, even 
for projects in urban areas. Because they don't have the 
facilities to do all things that are possible.
    Thank you, Madam Secretary.
    Ms. Chao. Thank you for bringing that up.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Of course, everybody can tell I am the junior member of 
this Committee.
    [Laughter.]
    Senator Shelby. I came on this Committee for one reason. I 
knew how important the infrastructure challenge was in this 
country and in this Congress.
    We all have our parochial interests, State by State, 
whether it is Iowa, whether it is my State of Alabama, 
everything. We know that a lot of our infrastructure is 
crumbling. We know that a lot of our ports are inadequate. The 
question is, Madam Secretary, and you have been a Secretary of 
Labor before, and I appreciate your commitment to public 
service. I think you bring a different wrinkle to the 
transportation challenges as Secretary.
    But we have to create a critical mass here, this year, if 
there is any way to do it. And it is not going to be easy. And 
we have to look at the macro challenge that we have.
    How are we going to do it? This Committee will play a big 
role. Obviously, the Finance Committee will play a role. The 
Appropriations Committee will play a role ultimately in this.
    But if we are going to grow our economy and create the 
jobs, and I think the President is right on this, we have to 
address our infrastructure inadequacies. You are in the 
forefront of it.
    I do believe, and we have talked about all this today some, 
but it is complex. I am sure it is not all worked out yet. 
There has to be a combination of other things. But there is so 
much more money in the private sector, if we figure out a way 
to leverage it up here. But we are going to have to get more 
money for the public sector. It is not going to be easy. But I 
think it is going to be incumbent upon us to create that 
critical mass. We have to do it.
    I would be interested, and I am not going to ask you this 
today specifically, but how do we leverage the private sector? 
There are a lot of creative minds in this country in the 
finance area. How do we do this? We do it everywhere else. But 
if we could do it in the transportation sector, you can drive 
around, or you can ride a train, you can do this and see, or 
you can go to a port and see what good infrastructure does and 
what it attracts in the private sector.
    We have to do this. Sixty years ago, more or less, we 
started the interstate highway system. God knows, that was a 
monumental thing. But we can't rest on that. A lot of it is 
crumbling, as you know. Our population is growing. I am looking 
at the Senator from California, the most popular State and the 
biggest challenge for infrastructure. But all of us, my State 
is 23rd, nearly 5 million people, and we have those same 
problems everywhere.
    I am going to go back to this. We have to find out a way to 
do critical mass, have we not, Madam Secretary?
    Ms. Chao. I couldn't agree with you more. The President 
does as well. Thank you for bringing up that infrastructure 
creates good paying jobs as well, because that is another topic 
that the President constantly talks about and is very concerned 
with as well.
    Public-private partnerships is not one way of doing things, 
but it is a method by which the private sector would be allowed 
to participate in public sector financing. As we have just 
heard, New York State does not allow public-private 
partnerships. So huge swaths of the private sector are unable 
to invest in a very critical part of our country by people who, 
one might say, are actually the most prosperous of all in one 
of the States to do so.
    So we also need to be incentivizing and discouraging, we 
need to be incentivizing State and local entities to engage 
more the private sector, do not discriminate against the 
private sector in their desire to help finance, where they can, 
the infrastructure.
    Senator Shelby. But there is so much capital looking for 
good investments in the private sector, a solid investment. 
Infrastructure could be, if it is done right, a solid 
investment for a long time. A lot of our endowments, our 
universities, are looking for a good return on their money. 
Everybody is. Look at the savings accounts today.
    We have a lot of money in this country. But we have to 
marshal it and put it together. You and the leadership, that is 
going to be one of our challenges. But we have to do it. If we 
don't, we are failing American people, are we not?
    Ms. Chao. Absolutely.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Shelby.
    Senator Harris.
    Senator Harris. Secretary Chao, thank you for being here.
    I have a few questions that relate to California 
specifically. I know you are familiar with the transportation 
challenges that California faces and the actions we are taking 
to address those challenges. The Transportation and 
Infrastructure Subcommittee met yesterday and heard about how 
Californians are investing substantial amounts of their own 
money in the State's transportation future. We need Federal 
support to continue. The Mayor of Los Angeles was here 
yesterday.
    So I want to ask you about the Department's involvement in 
a few of those projects. One is our State--a real high priority 
for the State is the CalTrans Peninsula Corridor 
Electrification Project. This is widely supported. It has 
already raised $1.3 billion in matching funds. It was highly 
rated by your Department and is ready to start construction 
immediately.
    In fiscal year 2017, the spending bill that the President 
just signed into law, Congress passed $100 million for this 
project. The law, however, requires that the Department of 
Transportation enter into a full funding grant agreement for 
projects to receive the funding. Now all that is needed for 
construction to start and for 10,000 jobs that will be part of 
this project to actually be hired into and filled is for the 
Department to execute the FFGA, as it is known.
    As you know, the contract to begin construction expires on 
June 30th, so in a very short period of time. Senator Feinstein 
and I sent you a letter last week urging that we execute this 
agreement so the project can begin. The project could be in 
jeopardy if the full funding grant agreement is not executed 
very soon.
    Can you give me a status on that?
    Ms. Chao. We have been very much focused on CalTrans. So 
please let me assure you that this is a subject that we pay a 
great deal of attention to. I have met with the Mayor, when he 
was here yesterday. I met also with Governor Brown. We have 
spoken with--I have spoken with Senator Feinstein and also 
Minority Leader Nancy Pelosi. Fifty percent of the new starts 
in the budget, if I am not mistaken, goes to California. So 
there is a lot of money going to California; there are a number 
of projects there.
    The fiscal year 2017 budget, the omnibus gave about $100 
million. That has helped. Going into fiscal year 2018, we will 
hear the rest of it, it is another $118 million. But California 
and in particular CalTrans is not the only project that is 
waiting for this money. So I am about $107 million.
    So the $100 million in fiscal year 2017, that can go out 
because I have just been given the money by the omnibus bill.
    Senator Harris. The 2017?
    Ms. Chao. Right. It is $100 million. Then in 2018, fiscal 
year 2018, it is $118 million. But the funding required is $225 
million. So I am about $105 million short. But the money from 
2017 will go out.
    Senator Harris. So then how do you recommend we address the 
deadline that we have of June 30th? We have a requirement that 
we get the full funding agreement by that date in order for the 
work to begin and the jobs to be filled.
    Ms. Chao. It is a tough problem. I understand the deadline. 
But there is no funding. So that is a problem.
    Senator Harris. How do you suggest we solve the problem?
    Ms. Chao. I wish I knew. We have been in discussion with 
your office, I believe, and Senator Feinstein's, the House 
minority leader's office, I met with Governor Brown. So it is 
an issue I think the California delegation needs to come 
together and discuss. There appears to be split opinions on 
this project as well.
    Senator Harris. So are you saying that the Department of 
Transportation cannot issue the FFGA?
    Ms. Chao. So far, it has not been issued. I cannot issue it 
if the funding is not there.
    Senator Harris. So you cannot issue it if the funding is 
not there. How do we account for the out-year funding?
    Ms. Chao. We can't commit to the out-year funding. How do 
we work on it together? And it is a big problem. We don't have 
the funding for it.
    Senator Harris. So I would urge your Department, under your 
leadership, to help us resolve this before June 30th. Because 
again, we are talking about thousands of jobs and 
infrastructure concerns that California has around 
transportation.
    I would also like to ask you about the West Side Purple 
Line Extension project in Los Angeles. Perhaps you talked with 
the Mayor about that. They have requested funding in this 
year's report and are seeking to enter an engineering phase 
later this summer.
    Can you commit that this year's project will follow the 
FAST Act's expectations and rate projects and recommended 
projects for funding? Are you familiar with that?
    Ms. Chao. I am very familiar with it, because the Mayor and 
I talked about it. He needs $1.3 billion in Purple Line 
funding. I understand the significance of it, because it is 
tied into the project that he is working on.
    I promised--I said to him that I would look at it, but that 
is for out-years, that is not 2017.
    Senator Harris. Right, that is correct.
    Is there any work that we can do through this Committee to 
follow up with you on that?
    Ms. Chao. I am always willing and eager to work with you 
and your office. I will continue to do so. I will let the Mayor 
know as to what the prospect is.
    Senator Harris. I appreciate that. Thank you.
    Ms. Chao. Thank you.
    Senator Barrasso. Thank you, Senator Harris.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    It is nice to be here with you, Secretary Chao. Thank you 
for what you are doing and for coming before the Committee.
    I would like to begin by just asking a commitment, as we 
all have, appreciate a commitment to work with my office on 
West Virginia's last priority, or our priority infrastructure 
projects, but the completion of Corridor H. As you know, it is 
the last bit left of the Appalachian Development Highway 
System. It has been under construction for 52 years, all 
throughout the Appalachian region. So I would hope that you 
all, and you have been, the Department in the past has, and I 
assume you would continue that commitment to finish that last 
little very difficult-to-build part of that system. I see you 
shaking your head.
    Ms. Chao. I hope so.
    Senator Capito. Good. That sounds good.
    On the King Coal Highway, another project in West Virginia, 
I want to really highlight the great work that the Federal 
Highway Administration has done. They have been leading the way 
with drawing together the Corps, the EPA, Fish and Wildlife on 
the project, and have been very responsive to State and local 
stakeholders.
    A few weeks ago, I joined Congressman Evan Jenkins for a 
roundtable on how to move forward on one stretch of the 
highway. The FHWA, led by Acting Executive Director Gloria 
Shepherd, was very responsive on the need to coordinate 
environmental reviews. It is a very different project, 
basically it is a coal project where at the end there will be a 
highway after the land is reclaimed. It has been a project that 
has been in the mix for a very long time and very stalled out.
    So we are trying to find a way, when the mining is 
completed, to have a pave-ready State. It would save the 
private stakeholders, it would save the public taxpayers a 
great deal of money in terms of almost $110 million. That is 
how much it would save on a 5-mile stretch. So I want to thank 
you, your Department and particularly the FHWA for their work 
on this. Thank you for that.
    This goes to the P-3 project, and I am not going to ask you 
to repeat, because I know you have been asked about this a lot. 
You have talked a lot about the possibilities and some of the 
drawbacks. So I would encourage you, as you are moving forward 
with this infrastructure package, to look at other creative P-3 
projects, such as this King Coal Highway project as we are 
moving forward.
    So I don't really have a question there, but I do have a 
question, second, because one of my biggest priorities, and you 
and I have talked about this, is rural broadband deployment. My 
State of West Virginia ranks 48th. I am on a bill that Senator 
Hatch has, that Senator Ernst and Senator Fischer are on, that 
would allow broadband deployment along existing rights of way 
on Federal lands.
    I am curious to know, is this part of the discussion in the 
infrastructure? You said principles are going to be coming out 
in the next several weeks. It seems to me this would be a great 
principle to include in this. Do you have any comments on that?
    Ms. Chao. I think the simple answer is yes. Yes. that is an 
area that we have discussed. While the final set of principles 
has not been finalized for release, that is certainly an area 
that we have talked extensively about.
    Senator Capito. I was in a meeting yesterday where the 
highlight was on infrastructure and this package, and the 
excitement of cities and businesses and the Administration and 
others. A question came up, well, a request came up, there were 
three large cities there, L.A. was one of them, the Mayor of 
L.A. was there, Denver, and Nashville. And one of the comments 
that they made was, don't make the State the pass-through for 
all the Federal dollars.
    What is, in the general scheme of things, how many of the 
dollars that come through that are road issues does pass 
through the State? In our case, I would say it is a great deal, 
a large percentage.
    Ms. Chao. A hundred percent, in my understanding, goes 
through the State, and they allocate it on a formula basis.
    Senator Capito. So in that aspect I disagree with the 
mayors of a large city, being from a smaller State, that we 
don't have the critical mass in any of our cities to be able to 
put together large projects. I think our State, along with 
other stakeholders and our State legislatures and our State 
DOTs and our infrastructure councils and water and sewer and 
all that, are really in good positions to be able to prioritize 
where projects--because we don't want to put a dollar here, a 
dollar here, a dollar here; we want completed projects, and I 
am sure you do, too.
    So I will be interested to see how that debate goes 
forward.
    Ms. Chao. It is understandable that mayors would hope that 
the money goes directly to them.
    Senator Capito. Right. I didn't blame them for that.
    Ms. Chao. But whatever is the will of Congress in having 
the Department distribute those funds is what we will follow.
    Senator Capito. But traditionally it has been through the 
State.
    Ms. Chao. Right.
    Senator Capito. Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Secretary Chao, welcome. I hope that you see this Committee 
as a resource for you. Under the leadership of Chairman Inhofe 
we did a number----
    Ms. Chao. Barrasso.
    Senator Whitehouse. No, no, I am going back in time. We did 
a number of big infrastructure bills; we did the last highway 
bill and a couple of WRDA bills. Chairman Barrasso, I think, 
has the intention to have the Committee work in just as 
powerful and bipartisan a way.
    I haven't had the pleasure of having Chairman Inhofe on my 
side, and having had the experience of having him not on my 
side, I can tell you he is very powerful either way. It has 
been great when we have been able to work together. I think 
this Committee provides that opportunity, in the past under him 
and now under Chairman Barrasso.
    One can foresee considerable tumult ahead in Washington, in 
a whole variety of areas. But I think in the relative 
bipartisan calm and quiet of our interest in infrastructure and 
the traditions of this Committee, you can find considerable 
support. I hope you will see us that way, and I hope that the 
Administration will not try to jam Congress on an 
infrastructure bill, but rather work in a bipartisan, bicameral 
fashion to get something that everybody can celebrate when the 
day is done.
    Ms. Chao. Thank you, to your first point, and the second 
point, yes, of course, we would like to collaborate with 
Congress. Because without your cooperation, there will be no 
bill, and that, as you mentioned is one of the few vehicles in 
which we hope to have bipartisan cooperation.
    Senator Whitehouse. Good. And of course, where private 
capital wants to come in, it has to be an investment, and the 
investment has to have a return, and that means there has to be 
a revenue stream. And for a considerable amount of our 
infrastructure requirements, there is no present revenue 
stream. In many cases, it would be hard to figure out how to 
generate one.
    I was at the Factory Bridge in West Warwick just a few days 
ago. It was built in the 1950s. It needs to be rebuilt. You are 
never going to put a toll on it; it is not going to be that big 
of a bridge. You actually need real money in order to get those 
kinds of infrastructure projects done.
    I am sure I am emphasizing what a lot of my colleagues have 
said, but in addition to creative financing and regulatory 
elements, there has to be a strong core of real spending for 
those types of projects. Otherwise, they simply won't get done. 
I hope you understand and accept that.
    Ms. Chao. We do.
    Senator Whitehouse. So the last thing I will mention is 
that as you may know, Rhode Island is a coastal State. 
Everybody lives within half an hour of the shore. We don't have 
a ton of coastal States here, but our Ranking Member sure is a 
coastal State. On our side, there are a bunch. I think Senators 
Wicker and Sullivan are two coastal Republicans, if I am not 
mistaken. Coastal States are seeing a particular problem, 
particularly with the sea level rise projections that NOAA and 
that State coastal officials are predicting.
    Senator Barrasso. Senator Whitehouse, I think Senator 
Shelby would consider his State a coastal State as well.
    Senator Whitehouse. So he would. So he would.
    Senator Barrasso. Yes, sir.
    Senator Whitehouse. So we have some issues about this 
problem, because the sea level rise projections are 
accelerating fairly fast. In many cases, local communities 
don't have the resources to do the planning and do the 
updating, so they can understand what the conditions are that 
they need to build to. There is no point building to a set of 
conditions that are not going to be the case in 20 years, not 
if you are building infrastructure.
    One of the things we have seen, in Rhode Island, at least, 
is that the FEMA mapping for flood risk is badly erroneous. So 
one of the things I will be pressing you all on, and I hope my 
coastal colleagues will be able to do so in full bipartisan 
fashion, is that as we are investing in coastal infrastructure, 
we need to also make sure we are investing in the planning and 
the data so that we know to what conditions these things must 
be built. That is often beyond the capability of the local 
community.
    To the extent that the FEMA mapping is as erroneous in 
other places as it has proven to be in Rhode Island, then 
actually a lot of people are being misled about what the 
conditions are going to be.
    If you could put an asterisk next to my comments, the 
takeaway being, remember this coastal problem, and trying to 
make sure that part of this bill helps get the planning right, 
so that the infrastructure is built efficiently and in the way 
it needs to be, and in a way that defends from the encroachment 
of seas and bays whose waters are measurably rising.
    Ms. Chao. Thank you very much. I am not aware of this 
issue, but I will certainly be aware, be educated about it, and 
also mention it to the White House.
    Senator Whitehouse. It is kind of like the Federal 
Government, FEMA is telling people one thing, and it just isn't 
accurate.
    Ms. Chao. Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Markey.
    Senator Markey. Thank you so much.
    Thank you, Madam Secretary.
    Can you talk a little bit about transit oriented 
development and the role you feel that is going to play in the 
long-term transportation plan that you have for the country?
    Ms. Chao. I grew up in an urban area, so I have always used 
public transit. I would expect to be very supportive of that as 
well. I have also lived in a rural area, in a rural State, and 
they have different needs as well. But overall, I am very 
supportive of transit.
    Senator Markey. Senators Schatz and Merkley and I worked 
hard to make sure that there was a provision in the FAST Act a 
couple of years ago that was included in terms of developing 
guidance on the development of a transit oriented development 
strategy for the country. Have you got any idea what the status 
is of that provision in the law in terms of implementing a 
plan?
    Ms. Chao. I do not, and I am remiss in that. But after this 
hearing, I will go immediately and find out.
    Senator Markey. The issue of fuel economy standards is very 
important to me as well. In 2007 I was the House author of the 
law to authorize the increase in the fuel economy standards of 
the vehicles which we drive in our country. There is now a 
point in time where there is a reevaluation that is apparently 
going to take place of those regulations, heading toward that 
goal of reaching 54.5 miles per gallon by the year 2025.
    If we do that, then we back out 2 million barrels of oil a 
day that we import. We are still importing 3 million barrels of 
oil a day from OPEC. Clearly that is the best way that we can 
use in order to back out that oil, so that are not sending 
young men and women over to the Middle East to protect oil 
tankers coming to our country, but rather that we are ensuing 
that are not consuming oil unnecessarily here in our own 
country.
    Can you talk about that reevaluation of the rule and what 
the status is at the Department of Transportation?
    Ms. Chao. In 2011, when the initial rule was promulgated, 
there was supposed to be a mid-year review. That mid-year 
review, to my understanding, was accelerated, which is why we 
reinstated it again. So the Department of Transportation and 
EPA are working on this. We should be on target in terms of 
coming up with a mid-year review by 2018. Mid-term review.
    Senator Markey. Do you think that it is in America's best 
interest to try to meet that 54.5 mile per gallon goal? It was 
tied mostly to national security backing out that oil, creating 
an energy independence for our country. Do you have a general 
philosophy about how rapidly you would like to see a 
transformation of our automotive sector?
    Ms. Chao. While I was Deputy Secretary for Transportation 
in 1989, I worked on the CAFE issues back then. Certainly, 
those standards were much lower, and we have certainly improved 
on them.
    But back then, there was also the discussion on how to 
balance protection of our environment, increasing the fuel 
economy of automobiles while not providing any dampening or 
hampering of economic growth.
    So I think those discussions are still ongoing. We of 
course all care about the environment. We want to do the right 
thing. What is reasonable, what is feasible, I think these are 
all discussions which we need to have with you and other 
Members of the Congress, the Senate and the Congress.
    Senator Markey. Thank you. The industry itself, year after 
year, has enjoyed historic increase in sales. I think that is a 
reflection, actually, of how welcoming the public is to this 
automation, this cool factor that is being built into these 
vehicles, the additional fuel economy standards. And the Elon 
Musk review, which I think every auto manufacturer is going to 
have to make in 2018, as he sells 400,000 all-electric vehicles 
at $35,000 apiece. I think we should ensure that that gets 
factored in very clearly into any reevaluation that takes 
place. I think that is in and of itself going to trigger a 
``game over'' for traditional ways of looking at automotive 
technology in our country.
    So we thank you for your service. I just want to say, Mr. 
Chairman, to you and the Ranking Member, and to the Secretary, 
that I am ready to go anywhere, anytime, to work on a 
bipartisan infrastructure bill. I am ready to work with anybody 
at any time. I think it is absolutely imperative for our 
country that we have a bill that passes and passes this year. 
Hopefully we can do so quickly.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper, any closing thoughts or questions?
    Senator Carper. Again, thanks so much for joining us today 
and for your responses to our questions and for your 
leadership.
    Mr. Chairman, I would like to ask unanimous consent to 
submit a letter from the Coalition of Road Safety Advocates for 
the record, please.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Carper. Thank you.
    When we met in my office earlier this month, we talked 
about a number of revenue options to actually pay for stuff, 
including transportation.
    One of the options that we mentioned then, I didn't touch 
on it today, it was an idea that had a lot of support in the 
last Congress, deemed repatriation, an element of, to actually 
form corporate tax reform. Two trillion dollars of overseas 
profits by multi-national companies. The idea was to deem it 
repatriated, it is just sitting offshore, deem it repatriated 
and maybe tax it at 15 percent, not 35 or 40 percent. It would 
raise about $300 billion. It is a big one-time, big one-time.
    There are some who thought we could use that to fund 
transportation going forward. Actually, it is a big one-time. 
But it is big. We have all these projects of national 
importance. We talked about going to the east coast, in New 
York City. Well, if you go to New York City and come out in New 
York City you have to go through these tunnels that are 90, 100 
years old. I have been stuck in those tunnels before; you 
probably have as well.
    There is a tunnel that goes under Baltimore that was built 
in the Civil War. But there are all kinds of projects of 
national importance that I think could be funded by a big one-
time, like the kind of money that we are talking about from 
deemed repatriation. It couldn't be used to fund 
transportation, roads, highways, bridges going forward. I don't 
think it is appropriate for lowering the corporate tax rate 
going forward, because it is a big one-time. Something could be 
in the base. But I wanted to mention that.
    Also, you have indicated the Administration wants to be 
especially helpful and direct funding to rural communities, 
where they can't always have these public-private partnerships 
and tolling may not work so well. I would just ask you not to 
forget the urban areas. There are some urban areas where, 
frankly, they don't have the money, either; they don't have the 
wherewithal to raise the money.
    As I said earlier, I think a third of our States actually 
have a prohibition on public-private partnerships. Thirty-five 
States, they have never had public-private partnerships, not 
even one. Texas, I think, just took the idea off the table. So 
I would just ask you, don't forget those urban areas.
    As it turns out, Mr. Chairman--I was shocked to learn this, 
but 80 percent of the people in this country live within 62 
miles of one of our coasts. Think about that. Eighty percent of 
the people in this country. That doesn't mean we should forget 
the folks who live in between the coasts. But that is a lot of 
people, with a lot of transportation needs.
    I want to mention, the Department of Transportation 
apparently has delayed some important rules to require 
performance targets for our infrastructure, performance 
targets. I don't know if you have had a chance to get into 
this. But we put in legislation, and we said, we are going to 
fund what works. Fund what works. And in order to find out what 
works, we put in these performance targets to actually measure 
performance toward those targets.
    Vince Lombardi, football coach, Green Bay Packers, he used 
to say, unless you're keeping score, you're just practicing. 
And he never said this, but what you can't measure, you can't 
manage. So with that in mind, we put in these performance 
measures. I think the rules are now scheduled to be effective 
on May 20th. I think they have been delayed twice already.
    I just want to ask if you can commit today to allowing 
those rules to go forward and go into effect as scheduled. 
Again, they have been delayed twice. The May 20th; are you 
familiar with this? You may not be.
    Ms. Chao. I am aware of the performance, of the 
requirements for performance evaluations. I am not aware that 
the deadline is May 20th. That is 3 days from now.
    Senator Carper. We will follow up with QFRs, questions for 
the record.
    Ms. Chao. Thank you.
    Senator Carper. We think it is a good idea, finding what 
works, do more of that. If you don't have performance measures, 
it is hard to know.
    Finally, one of your major responsibilities, you mentioned 
three things you were going to focus on. One of them was 
safety. And just take a moment and tell us how the Department 
is responding to the safety crisis on our roads today, 
including the rising number of pedestrian fatalities. Delaware 
is very high in pedestrian fatalities, which causes great 
concern. Would you give us a glimpse into what you are thinking 
of doing on the safety side, particularly on the pedestrian 
safety side? Forty thousand people died on our roads, highways 
and bridges last year. Forty thousand. It is going up, not 
down.
    Ms. Chao. When I was Deputy Secretary of Transportation, 
the total number of fatalities on the highways was 51,000. So 
when I came back, in January of this year, I was so pleased to 
hear that the number has dropped down to about 39,000. 
Unfortunately, in the last 2 years, 2015 and 2016, that number 
has increased again, 7 percent, 8 percent respectively.
    So we are very concerned about that. And we have asked a 
number of the agencies that are involved, Highways, NHTSA, to 
work together to see why this is happening and find out what 
the root is. Then we will have a clear course of action.
    Senator Carper. I close with this, Mr. Chairman and Madam 
Secretary. If we have good performance measures, and one of 
those is very likely to include safety, fatalities, that sort 
of thing, if we have good performance measures in place, and we 
are measuring performance, we ought to have an idea of which 
States are actually being more effective in reducing fatalities 
and the States where they are going up.
    And the idea being, look at those States as laboratories of 
democracy, find out what is working to reduce fatalities, do 
more of that.
    Thank you so much. Good luck. We were happy to be with you 
today.
    Ms. Chao. Thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    Thank you, Madam Secretary. We are so grateful that you 
would spend your time with us this morning. Thank you for open 
answers that you have given to each of the questions. Some of 
the other members of the Committee may have some written 
questions that they will submit, but I am very grateful for 
your testimony today.
    With that, our hearing is adjourned.
    [Whereupon, at 11:45 a.m., the hearing was concluded.]

                                 <all>
</pre></body></html>
